No. 19-487

In the Supreme Court of the United States
______________

KEVIN W. CULP, MARLOW DAVIS, FREDDIE REEDDAVIS, DOUGLAS W. ZYLSTRA, JOHN S. KOLLER,
STEVE STEVENSON, PAUL HESLIN, MARLIN
MANGELS, JEANELLE WESTROM, SECOND AMENDMENT FOUNDATION, INC., ILLINOIS CARRY, and ILLINOIS STATE RIFLE ASSOCIATION,
Petitioners,
v.
KWAME RAOUL, in his official capacity as Attorney
General of the State of Illinois, BRENDAN F. KELLY, in
his official capacity as Director of the Illinois State Police,
and JESSICA TRAME, as Bureau Chief of the Illinois
State Police Firearms Services Bureau,
Respondents.
______________

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
______________

BRIEF IN OPPOSITION FOR RESPONDENTS
____________

JANE ELINOR NOTZ*
KWAME RAOUL
Solicitor General
Illinois Attorney General
SARAH A. HUNGER
100 West Randolph Street
Deputy Solicitor General Chicago, Illinois 60601
(312) 814-5376
*Counsel of Record
jnotz@atg.state.il.us
Attorneys for Respondents

QUESTION PRESENTED
Whether the Seventh Circuit correctly concluded
that the Illinois Firearm Concealed Carry Act—which
requires that nonresident applicants for a concealed
carry license reside in a State with possession and carriage laws that are substantially similar to those in
Illinois—respects the Second Amendment, where the
undisputed evidence shows that Illinois cannot presently determine whether applicants from dissimilar
States have a disqualifying criminal or mental health
history.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
TABLE OF AUTHORITIES ...................................... iii
BRIEF IN OPPOSITION............................................ 1
STATEMENT ............................................................. 3
REASONS FOR DENYING THE PETITION ......... 14
I.

The Petition Does Not Satisfy The Criteria
For Certiorari Review. ....................................... 16

II. The Decision Below Is Correct. .......................... 18
A. The Seventh Circuit’s decision is
consistent with Heller. .................................. 18
B. Petitioners’ arguments to the contrary
are incorrect. ................................................. 21
CONCLUSION.......................................................... 27
APPENDIX................................................................ 1a
Affidavit of Illinois State Police Firearms
Services Bureau Chief Jessica Trame,
(Aug. 31, 2015).................................................... 1a
Affidavit of Illinois State Police Firearms
Services Bureau Chief Jessica Trame,
(Jan. 13, 2017) .................................................. 12a
Affidavit of Illinois State Police Firearms
Services Bureau Chief Jessica Trame
(Feb. 17, 2017) .................................................. 23a

iii
TABLE OF AUTHORITIES
Page(s)
Cases:
Binderup v. Attorney General,
836 F.3d 336 (3d Cir. 2016) ................................. 17
District of Columbia v. Heller,
554 U.S. 570 (2008) .....................................passim
Drake v. Filko,
724 F.3d 426 (3d Cir. 2013) ................................. 23
Ezell v. City of Chicago,
651 F.3d 684 (7th Cir. 2011) ............................... 16
Gould v. Morgan,
907 F.3d 659 (1st Cir. 2018) .......................... 22, 23
Jones v. Bock,
549 U.S. 199 (2007) ............................................. 16
Kachalsky v. City of Westchester,
701 F.3d 81 (2d Cir. 2012) ............................. 22, 23
Kanter v. Barr,
919 F.3d 437 (7th Cir. 2019) ............................... 17
Medina v. Whitaker,
913 F.3d 152 (D.C. Cir. 2019) ............................. 17
McDonald v. City of Chicago,
561 U.S. 742 (2010) ............................................. 23
Moore v. Madigan,
702 F.3d 933 (7th Cir. 2012) ............................... 16
Peruta v. Cty. of San Diego,
824 F.3d 919 (9th Cir. 2016) ............................... 23

iv
TABLE OF AUTHORITIES–Continued
Page(s)
Peterson v. Martinez,
707 F.3d 1197 (10th Cir. 2013) ........................... 23
Tyler v. Hillsdale Cty. Sheriff’s Dep’t,
837 F.3d 678 (6th Cir. 2016) ............................... 21
United States v. Rene E.,
583 F.3d 8 (1st Cir. 2019) .................................... 17
Woollard v. Gallagher,
712 F.3d 865 (4th Cir. 2013) ............................... 23
Wrenn v. District of Columbia,
864 F.3d 650 (D.C. Cir. 2017) ............................. 23
Statutory Authorities:
18 U.S.C. § 922(g)(1) ................................................. 17
18 U.S.C. § 922(x)(2)(A) ............................................ 17
430 ILCS 65/0.01 et seq............................................... 4
430 ILCS 65/2(b) ................................................... 3, 24
430 ILCS 65/4(a)(2). .................................................... 4
430 ILCS 65/8.1....................................................... 5, 9
430 ILCS 66/1 et seq.................................................... 1
430 ILCS 66/10............................................................ 3
430 ILCS 66/10(c)........................................................ 3
430 ILCS 66/10(g)(1) ....................................... 3, 22, 24
430 ILCS 66/25(2) ....................................................... 4
430 ILCS 66/25(4) ....................................................... 4

v
TABLE OF AUTHORITIES–Continued
Page(s)
430 ILCS 66/30(b) ................................................... 4, 5
430 ILCS 66/35............................................................ 5
430 ILCS 66/40............................................................ 3
430 ILCS 66/40(b) ................................................. 5, 19
430 ILCS 66/40(c)........................................................ 4
430 ILCS 66/40(e) ................................................. 3, 24
430 ILCS 66/65............................................................ 3
430 ILCS 66/70(a) ................................................... 3, 5
Other Authorities:
20 Ill. Admin. Code § 1231.10. ................................... 5
Illinois State Police Firearms Services Bureau,
Frequently Asked Questions ................................ 11
Sup. Ct. R. 10 ............................................................ 16

1
BRIEF IN OPPOSITION
The Illinois Firearm Concealed Carry Act (“Concealed Carry Act”), 430 ILCS 66/1 et seq., requires the
Illinois State Police, prior to issuing a license to carry
a concealed firearm in public, to establish that applicants do not have a disqualifying criminal or mental
health history, and, in addition, to monitor licensees
over the life of the license to confirm ongoing eligibility. In this manner, the Act works to ensure that felons and the mentally ill do not carry firearms in public—prohibitions that are “presumptively lawful” under District of Columbia v. Heller, 554 U.S. 570 (2008),
and not challenged by petitioners.
For Illinois residents, the Illinois State Police are
able to verify and monitor an applicant’s eligibility
through Illinois’s own databases, which contain comprehensive criminal history and mental health information about Illinois residents. The Illinois State Police do not, however, have access to that information
for nonresidents. Accordingly, the Act allows nonresidents to apply for a concealed carry license only if
their home State’s firearm ownership, possession, and
carriage laws are substantially similar to those in Illinois. States are substantially similar if they “monitor the same criminal and mental health qualifications Illinois requires under its own laws and report
this information to national databases.” Pet. App. 9.
At summary judgment, respondents marshaled evidence detailing the difficulties faced by the Illinois
State Police when attempting to verify and monitor
the eligibility of nonresident applicants who live in
dissimilar States. Respondents also explained how
the substantial-similarity requirement addresses

2
these difficulties, as well as its close ties to the
longstanding prohibitions on firearm possession by
felons and the mentally ill recognized in Heller. Petitioners made no attempt to dispute the difficulties
caused by this “information deficit” or that Illinois has
a public-safety interest in prohibiting felons and the
mentally ill from carrying firearms in public. Nor did
they offer a historical account in support of their argument that the Second Amendment precluded Illinois from implementing its substantial-similarity requirement. On this record, the district court granted
summary judgment to respondents, and the Seventh
Circuit affirmed.
The Seventh Circuit’s decision, which was based in
large part on petitioners’ evidentiary and legal shortcomings, was correct.
The undisputed evidence
showed a direct relationship between the substantialsimilarity requirement and Illinois’s “weighty interest
in preventing the public carrying of firearms by individuals with mental illness and felony criminal records.” Pet. App. 17. The court’s decision also hewed
closely to Heller, which recognized a historical predicate for States prohibiting possession of firearms by
felons and the mentally ill.
Petitioners do not identify a circuit split implicated
by this case or otherwise present any reason for this
Court to review the Seventh Circuit’s sound decision.
Instead, they assert that Heller and Seventh Circuit
precedent preclude Illinois’s process for monitoring
public carriage. But this Court’s certiorari jurisdiction is not designed to correct a misapplication of the
law to the particular facts of a case—which, in any
event, did not occur here. The petition should be denied.

3
STATEMENT
1. Under Illinois’s Concealed Carry Act, resident
and nonresident licensees are permitted to carry a
concealed firearm on or about their person in public,
so long as they are not in a prohibited area such as a
school or hospital. 430 ILCS 66/10(c), 66/65.1 The Illinois State Police are responsible for issuing concealed carry licenses to applicants who satisfy the requirements for public carriage, as well as monitoring
the continued eligibility of licensees during the life of
the license. Id. 66/10, 66/40, 66/70(a). The eligibility
requirements, which are “identical” for residents and
nonresidents, Pet. App. 5, “turn[ ] on the continuing
and verifiable absence of a substantial criminal record
and mental health history,” id. at 7. Once issued, licenses are valid for five years, but may be revoked if
the licensee later becomes ineligible. 430 ILCS
66/10(c), 66/70(a).
To obtain a concealed carry license, applicants must
first show that they are eligible to possess firearms.
To satisfy this requirement, applicants must present
a valid license to possess firearms in Illinois (issued
There are exceptions to the requirement that nonresidents
who wish to carry or transport their firearms in Illinois obtain a
concealed carry license.
An unlicensed nonresident may
transport a concealed firearm in his or her vehicle in Illinois, so
long as the nonresident is not prohibited from owning or possessing a firearm under federal law and is eligible to carry a firearm in public under the laws of his or her State of residence. 430
ILCS 66/40(e). Likewise, a nonresident does not need a concealed
carry license when on a firing range; in an area where hunting is
permitted; on the nonresident’s own land or in his or her abode,
legal dwelling, or fixed place of business; and a guest in another’s
home. Id. 65/2(b)(5), (7), 66/10(g)(1).
1

4
pursuant to the Illinois Firearm Owners Identification Act, 430 ILCS 65/0.01 et seq., and known as a
“FOID card”) or in their home State, where applicable.
430 ILCS 66/25(2), 66/40(c)(2). Additionally, applicants must demonstrate that they satisfy the requirements for a FOID card at the time of their application
for a concealed carry license. Id. 66/25(2), 66/40(c).
Relevant here, applicants are ineligible for a FOID
card—and thus a concealed carry license—if they
have a disqualifying criminal or mental health history. For example, applicants cannot obtain a concealed carry license if they have been convicted of a
felony or a domestic battery, id. 65/4(a)(2)(ii), (ix), or
if they have an intellectual or developmental disability, have been involuntarily admitted into a mental
health facility, or have been adjudicated a person with
a mental disability, id. 65/4(a)(2)(v), (xv), (xvi), (xvii).
Applicants are also ineligible if, within the past five
years, they were voluntarily admitted into a mental
health facility or have been convicted of an assault in
which a firearm was used or possessed.
Id.
65/4(a)(2)(iv), (viii).
In addition to these underlying FOID card requirements, applicants are ineligible for a concealed carry
license if, within the five years preceding the application, they have been convicted or found guilty of a misdemeanor involving the use or threat of physical force
or violence, or two or more violations related to driving
while under the influence. Id. 66/30(b)(5). Applicants
must also not be the subject of a pending arrest warrant, prosecution, or other proceeding for an offense
that could lead to disqualification from possessing a
firearm. Id. 66/25(4).

5
Upon receiving a completed application, the Illinois
State Police “conduct a background check of the applicant to ensure compliance with the requirements of
[the Concealed Carry Act] and all federal, State, and
local laws.” Id. 66/35. The Illinois State Police are
also responsible for monitoring the continued eligibility of licensees during the life of the license. Id. 65/8.1,
66/30(b)(3), 66/70(a). However, while the Illinois
State Police have direct access to information about
the criminal and mental health history of Illinois residents, they lack access to such information about
nonresidents. Pet. App. 6-8, 86-87; Resp. App. 15a17a. To ensure that the Illinois State Police can obtain the information necessary to verify a nonresident’s initial and continued eligibility, Pet. App. 8, the
Concealed Carry Act requires a nonresident applicant
to reside in a “state or territory of the United States
with laws related to firearm ownership, possession,
and carrying, that are substantially similar to the requirements to obtain a license under [the Concealed
Carry Act],” id. 66/40(b).
A State is substantially similar when it: (1) “regulates who may carry firearms, concealed or otherwise,
in public”; (2) “prohibits all who have involuntary
mental health admissions, and those with voluntary
admissions within the past 5 years, from carrying firearms, concealed or otherwise, in public”; (3) “reports
denied persons to [the National Instant Criminal
Background Check System]”; and (4) “participates in
reporting persons authorized to carry firearms, concealed or otherwise, in public through [the National
Law Enforcement Telecommunications System].” 20
Ill. Admin. Code § 1231.10. The National Instant
Criminal Background Check System and the National

6
Law Enforcement Telecommunications System are
federal databases that are made available to States.
Resp. App. 4a-5a.
2. Petitioners, who are nonresidents seeking to apply for and obtain a concealed carry license in Illinois
and nonprofit organizations whose members seek the
same, brought this lawsuit, alleging that Illinois’s
substantial-similarity requirement violates the Second Amendment, Equal Protection Clause, Due Process Clause, and Privileges and Immunities Clause.
R. 1-30. After fact discovery closed, petitioners moved
for a preliminary injunction, R. 58-59, attaching only
the individual petitioners’ declarations as evidentiary
support, R. 103-23.
Respondents objected to the motion on both legal
and factual grounds. R. 168. With respect to the latter, respondents submitted an affidavit from Illinois
Firearms Services Bureau Chief Jessica Trame, who
was responsible for administering the FOID and Concealed Carry licensing programs for the Illinois State
Police. Resp. App. 1a.2 In her affidavit, Chief Trame
described the application review process and the “information deficit the State faces with vetting and
monitoring out-of-state residents.” Pet. App. 17; Resp.
App. 1a.

2 Respondents’ appendix contains the full text of Chief
Trame’s August 31, 2015 affidavit submitted in support of respondents’ objection to the preliminary injunction motion, see
Resp. App. 1a-11a, as well as the text of her January 13, 2017
and February 17, 2017 affidavits, which were submitted by respondents in support of their motion for summary judgment, see
Resp. App. 12a-24a.

7
Chief Trame explained that the Illinois State Police
process for reviewing applications begins with verifying the applicant’s identity. Id. at 2a. A resident’s
identity is verified primarily by reviewing the driver’s
license and identification card system maintained by
the Illinois Secretary of State. Id. at 3a. This system,
however, does not extend to nonresidents, and the Illinois State Police lack direct access to other States’
databases. Ibid. Accordingly, the Illinois State Police
must rely on the National Law Enforcement Telecommunications System, a database that contains records
of valid driver’s licenses and concealed carry licenses.
Id. at 3a, 5a. However, that database is limited by the
fact that not all States participate in it. Id. at 4a.
After the applicant’s identity is verified, the Illinois
State Police perform a background check, id. at 2a, to
verify, among other things, that the “applicant’s criminal history does not render the applicant ineligible,”
id. at 4a. For Illinois residents, this includes reviewing a number of federal systems and two systems
maintained by the Illinois State Police—the Criminal
History Record Inquiry System and the Computerized
Hot Files System. Id. at 2a.
Because the Illinois State Police do not have access
to other States’ databases, they “rel[y] on federal databases to obtain out-of-state criminal history information.” Id. at 4a. These federal databases—such as
the National Instant Criminal Background Check
System, which contains information about persons
prohibited from possessing firearms, among other
things—are often inadequate because some States do
not provide them with complete or uniform information. Id. at 5a-6a.

8
The Illinois State Police must also verify that the
applicant does not have a disqualifying mental health
history. Id. at 6a. For Illinois residents, the Illinois
State Police consult a state database to determine
whether an individual has been involuntarily admitted into, or has been a patient in, a mental health facility in Illinois. Id. at 6a-7a. But this database does
not contain records “of out-of-state mental health facility admissions,” and the Illinois State Police do not
have “access to other states’ mental health facility admissions databases” Id. at 7a. As for federal databases, only the National Instant Criminal Background Check Index contains information related to
mental health history. Ibid. That database, however,
contains no information on voluntary mental health
admissions. Ibid.
After an applicant obtains a concealed carry license, the Illinois State Police continue to monitor the
licensee in various ways. Id. at 7a-9a. They perform
daily searches in Illinois’s criminal history and mental
health databases for any new disqualifying events,
and check all licensees “against the federal databases
on a quarterly basis.” Id. at 7a. There is also an extensive system of in-state reporting to alert the Illinois State Police about new disqualifying events, id.
at 8a, including statutorily required reporting by Illinois physicians, qualified examiners, law enforcement
officials, state circuit clerks, and school administrators when, as relevant to their respective purviews,
they become aware that a licensee poses a clear and
present danger or is rendered ineligible for mental
health reasons, 430 ILCS 65/8.1. Because these reporting requirements do not (and cannot) apply outside of Illinois, the Illinois State Police are dependent

9
on other States to monitor their own residents. Id. at
8a-9a. Otherwise, it would be “virtually impossible to
effectively conduct this same level of screening and
monitoring for nonresident[s].” Id. at 9a.
Chief Trame also explained the procedure the Illinois State Police use to determine which States have
substantially similar license requirements. Ibid. In
2013, when the Concealed Carry Act went into effect,
the Illinois State Police sent surveys to other States
“requesting information regarding their regulation of
firearms use and reporting and tracking mechanisms
relative to criminal activity and mental health issues.”
Ibid. In 2014, the Illinois State Police “sent a second
survey to those states that did not respond to the first
survey.” Ibid. The results of these surveys reflected
that “Hawaii, New Mexico, South Carolina, and Virginia” had substantially similar laws. Ibid.
3. Based on the foregoing evidence, the district
court denied petitioners’ request for a preliminary injunction, concluding that their “likelihood of success
on the merits is not strong and the balance of harms
favors [respondents] and the public.” R. 406-07, 469.
The Seventh Circuit affirmed in a 2-1 decision. Pet.
App. 88 (Posner, J.). The court held that “the constitutional right to keep and bear arms means that
states must permit law-abiding and mentally healthy
persons to carry loaded weapons in public,” but noted
that “‘law-abiding,’ and ‘mentally healthy’ are significant limitations on the right of concealed carry.” Id.
at 82-83 (internal quotations omitted). The Concealed
Carry Act entitles an individual to carry a firearm in
public, but only if he or she “meets the qualifications
set forth in the Act,” id. at 82, which are “mainly about

10
whether the applicant . . . has a criminal history or a
history of mental illness,” id. at 86.
And “while the Illinois state police have ready access to information about Illinois residents” to assess
their eligibility to carry a firearm, “they lack reliable
access to the information they need about the qualifications of nonresident applicants other than [those residing in the] ‘substantially similar’ states.” Ibid.
Therefore, “[t]he critical problem presented by the [petitioners’] demand—for which they offer no solution—
is verification” of a nonresident’s application and the
ability to receive “reliable updates” about their qualifications. Id. at 88. The court noted, though, that a
“trial in this case may cast the facts in a different
light,” ibid., due in part to the fact that the record at
that point consisted primarily of Chief Trame’s “uncontradicted affidavit,” id. at 86.
4. Shortly thereafter, the parties filed cross motions for summary judgment. R. 532-33, 821, 835, 874.
Because fact discovery had closed before petitioners
filed their preliminary injunction motion, the record
at summary judgment was nearly identical to the record at the preliminary injunction stage. R. 529.3 In
On remand, petitioners moved to reopen discovery. Dist.
Ct. Doc. Nos. 16, 38. Respondents objected, explaining that they
had served petitioners with interrogatories, requests for production, and disclosures before the close of discovery, but received no
response. R. 496-98. For their part, petitioners had not served
any written discovery requests and never requested to depose defense witnesses. Id. The magistrate judge sustained the objection, finding that petitioners “made no showing of any diligence
in conducting discovery and no good cause for the relief they
seek.” R. 529. Petitioners did not object to this ruling, and the
district court did not address it. R. 1319-20.
3

11
particular, the summary judgment record included
two additional affidavits from Chief Trame that mirrored her initial affidavit, with the addition of updated
information about which States qualified as substantially similar at that time. Resp. App. 12a, 23a. On
that point, Chief Trame reported that the Illinois
State Police sent out another survey in 2015. Id. at
21a. Based on the results of that survey, Arkansas,
Mississippi, Texas, and Virginia were deemed substantially similar. Id. at 24a.4 These results, as well
as Chief Trame’s description of the application process
and the difficulties faced by Illinois in obtaining nonresidents’ criminal and mental health history, again
went uncontroverted by petitioners. Pet. App. 17.
The district court granted respondents’ motion for
summary judgment. Id. at 37. On the Second Amendment claim, the court held that “Illinois has a substantial interest in restricting concealed carry licenses to
those persons whose qualifications can be verified and
monitored,” and that the “restriction barring nonresidents from states without substantially similar laws
from applying for an Illinois concealed carry license is
substantially related to the strong public interest.” Id.
at 78. Petitioners appealed. R. 1345.5

The Illinois State Police has since sent out another survey,
the results of which show that Arkansas, Idaho, Mississippi, Nevada, Texas, and Virginia are substantially similar. See Illinois
State Police Firearms Services Bureau, Frequently Asked Questions, https://www.ispfsb.com/Public/FAQ.aspx.
4

The district court also granted of summary judgment to respondents on the petitioners’ privileges and immunities, equal
protection, and due process claims. Pet. App. 21-25. The Seventh
5

12
5. In a 2-1 decision, the Seventh Circuit affirmed.
Pet. App. 26 (Scudder, J.). As the court explained, petitioners did not dispute that individuals with the
criminal or mental health history that Illinois has
identified as disqualifying should not carry firearms
in public. Id. at 15. And petitioners also did not challenge Chief Trame’s affidavits: “[a]t no point in this
litigation—not in the district court, during the first
appeal, or now in this second appeal—have [petitioners] presented evidence refuting Illinois’s showing of
[the] information deficit” that prevents it from reliably
verifying whether nonresidents from dissimilar States
have a disqualifying criminal or mental health history. Id. at 7-8. Nor did petitioners dispute that Illinois’s licensing standards are identical for nonresident and residents alike, id. at 16, or that any “differential licensing impact” on nonresident applicants “is
the product of the information deficit the State faces,”
id. at 16-17.
Nonetheless, petitioners argued that the Second
Amendment precludes Illinois from declining to make
concealed carry licenses available to residents of dissimilar States. Id. at 14. But that argument, the Seventh Circuit explained, could not “be squared with”
the holding of Heller, “that the rights conferred by the
Second Amendment are not unlimited.” Ibid. In fact,
Heller “underscored the propriety of the ‘longstanding
prohibitions on the possession of firearms by felons
and the mentally ill.’” Id. at 14-15 (quoting Heller, 554
U.S. at 626). Noting the absence of historical support
for petitioners’ assertion of a “broad, unfettered right
Circuit affirmed, and petitioners do not seek this Court’s review
of those claims. Pet. at i.

13
to carry a gun in public,” the Seventh Circuit held that
“the Second Amendment allows Illinois, in the name
of important and substantial public-safety interests,
to restrict the public carrying of firearms by those
most likely to misuse them.” Id. at 15.
For many of the same reasons, the court also rejected petitioners’ argument that the substantial-similarity requirement impermissibly discriminates
against nonresidents. Id. at 16. Illinois had shown
that the “substantial similarity requirement relates
directly to the State’s important interest in promoting
public safety by ensuring the ongoing eligibility of
those who carry a firearm in public.” Id. at 17. So
long as “information deficits inhibit the State’s ability
to monitor the ongoing qualifications of out-of-state
residents outside of the substantially similar states,”
requiring Illinois to issue licenses “despite this information shortfall would thrust upon Illinois a race to
the bottom.” Ibid. Licenses would have to be issued
to nonresidents without proper verification, and
“[o]nce eligible would risk meaning forever eligible.”
Ibid. Such an outcome would be irreconcilable with
Heller’s acceptance of laws prohibiting firearm possession by felons and the mentally ill. Ibid.
Finally, the Seventh Circuit dismissed petitioners’
contention that the impact of the information deficit
should fall on Illinois. Id. at 19. Petitioners accepted
that “Illinois cannot adequately monitor their mental
health or potential criminal behavior,” but nevertheless asserted that it should be sufficient “for Illinois to
ask license holders to self-report any disqualifying
criminal history or mental health developments.” Id.
at 19-20. In rejecting this assertion, the court held
that “Illinois is not forced to accept the public-safety

14
risk of relying on individuals to self-report a felony
conviction, domestic violence arrest, or mental health
crisis,” id. at 20; “[n]or is the State required to tailor
its law so narrowly as to sacrifice its important monitoring interest,” ibid.
In dissent, Judge Manion agreed with the majority
in some respects. He rejected petitioners’ argument
that strict scrutiny should apply, id. at 28, and recognized that Illinois’s “goal for its law—to keep guns out
of the hands of felons and the mentally ill in public”—
was a sufficiently “strong public interest justification,”
id. at 29 (internal quotations omitted). He would have
held, however, that the Illinois law was insufficiently
narrowly tailored to that goal and that it was “both
underinclusive and overinclusive.” Ibid. In his view,
Illinois could overcome the information deficit by employing a variety of “workarounds”: it could, for example, increase the cost to nonresidents of a concealed
carry license, and/or impose on nonresidents “quarterly reporting and mental-health certification requirements.” Id. at 31, 34 & n.5. He declined to opine
whether such “workarounds” would “independently
pass constitutional muster,” however. Id. at 34-35
n.5.
Petitioners filed a petition for rehearing and rehearing en banc, which was denied with no judges in
regular active service requesting a vote for rehearing
en banc and all members of the original panel voting
to deny panel rehearing. Pet. App. 106.
REASONS FOR DENYING THE PETITION
The undisputed evidence presented at summary
judgment shows that the Illinois State Police cannot
presently verify or monitor the criminal and mental

15
health histories of nonresidents who live in dissimilar
States. Petitioners accept this reality, but claim that
the solution Illinois has crafted—the substantial-similarity requirement—impinges upon their Second
Amendment rights. According to petitioners, the Second Amendment requires Illinois to allow nonresidents to carry firearms in public even in circumstances when it is impossible to verify whether those
individuals have a disqualifying criminal or mental
health history. This theory, as the Seventh Circuit
rightly concluded, is misguided. Not only is petitioners’ position inconsistent with Heller, but it also ignores the undisputed evidentiary showing that the
substantial-similarity requirement is directly related
to Illinois’s public-safety interest in prohibiting potentially dangerous persons from publicly carrying firearms.
Petitioners’ theory, moreover, is not suitable for
this Court’s review. Petitioners make no meaningful
effort to identify a split in lower court authority or otherwise satisfy the criteria for certiorari. Instead, they
present a request for error correction, arguing that the
decision below conflicts with Heller and Seventh Circuit precedent. But this Court’s certiorari jurisdiction
is not designed to determine whether a lower court
properly applied settled precedent to the facts of a
case. And even if it were, there would be no error to
correct here. The Seventh Circuit properly applied
Heller and own precedent. The petition should be denied.

16
I.

The Petition Does Not Satisfy The Criteria
For Certiorari Review.

Petitioners’ principal argument is that the decision
below conflicts with Heller, Pet. 15-17, and with the
Seventh Circuit’s own precedent, id. at 5-6 (contending that the lower court denied petitioners the “right
to carry” recognized in Moore v. Madigan, 702 F.3d
933 (7th Cir. 2012)); id. at 6-7 (asking this Court to
consider whether the government interest rejected “in
the Seventh Circuit’s decisions in Moore and Ezell v.
City of Chicago, 651 F.3d 684 (7th Cir. 2011),” should
have been rejected here).
But whether the Seventh Circuit correctly applied
either Heller or its own precedent to the evidence presented is not a question suitable for this Court’s review. See Sup. Ct. R. 10. This Court’s certiorari jurisdiction is not designed to resolve a “possible intracircuit split,” Jones v. Bock, 549 U.S. 199, 220 n.9
(2007), or to relitigate application of this Court’s precedent to the facts of a given case. And, in any event,
the decision below is fully consistent with both Heller
and Seventh Circuit precedent, see infra Section II.
Petitioners additionally state that “lower court
judges have proposed an array of different approaches
and formulations, producing a morass of conflicting
lower court opinions regarding the proper analysis to
apply in Second Amendment cases.” Pet. 29 (internal
quotations omitted). They do not, however, articulate
an identifiable circuit split on a specific legal question.
Petitioners’ amici similarly fail to identify a circuit
split on any question presented by this case. They
first contend that there is a split in authority on the
“proper historic scope of traditional exclusions.” Am.

17
Br. 8. But the decisions they cite address constitutional challenges to the federal ban on possession of
firearms by felons and juveniles. See id. at 8-10 (discussing Medina v. Whitaker, 913 F.3d 152 (D.C. Cir.
2019) (challenge to 18 U.S.C. § 922(g)(1)); Kanter v.
Barr, 919 F.3d 437 (7th Cir. 2019) (same); Binderup v.
Attorney General, 836 F.3d 336 (3d Cir. 2016) (same);
United States v. Rene E., 583 F.3d 8 (1st Cir. 2019)
(challenge to 18 U.S.C. § 922(x)(2)(A))). The question
whether felons (or juveniles) should be allowed to possess firearms, however, is not presented by this case.
On the contrary, petitioners state that they “are not
challenging the substantive licensing requirements in
the Illinois [Concealed Carry Act].” Pet. 28; see also
Pet. App. 14-15 (noting that petitioners “admit that
they ‘do not take issue with [firearm] restrictions on
individuals with certain criminal histories or a history
of admittance to mental health facilities’”) (brackets
in original).
The second alleged split proffered by the amici—the
availability of as-applied challenges to felons prohibited from possessing firearms under 18 U.S.C.
§ 922(g)(1), see Am. Br. 14-16—likewise does not relate to this case. In fact, the amici appear to recognize
that this question is not presented. See Am. Br. 3 (describing division in authority as existing “[i]n related
contexts”). Accordingly, granting certiorari on the
question presented by this case—which is limited to
whether Illinois’s substantial-similarity requirement
is constitutional under the Second Amendment—
would not resolve whether as-applied challenges are
allowed under Section 922(g)(1). All told, neither petitioners nor their amici have articulated a circuit
split.

18
II.

The Decision Below Is Correct.

In addition to failing to identify any circuit split implicated by this case, the petition’s primary assertion—that the decision below conflicts with Heller and
prior Seventh Circuit decisions—is incorrect. Thus,
not only does this case not satisfy the criteria for certiorari review, the decision below reflects no error to
correct.
A. The Seventh Circuit’s decision is consistent with Heller.
Contrary to petitioners’ argument, Pet. 15-16, the
Seventh Circuit hewed closely to Heller, including its
analysis of the relevant history of firearm regulations,
Pet. App. 14-15, which make clear that the right conferred under the Second Amendment is “not unlimited,” Heller, 554 U.S. at 595. The Seventh Circuit
noted that even in Blackstone’s time, the Second
Amendment had not been understood as a right to
“‘keep and carry any weapon whatsoever in any manner whatsoever and for whatever purpose.’” Pet. App.
14 (quoting Heller, 554 U.S. at 626). In fact, the
“‘longstanding prohibitions on the possession of firearms by felons and the mentally ill’” are treated as
“‘presumptively lawful.’” Id. at 14 (quoting Heller, 554
U.S. at 626-27 n.26). Based on these principles, which
petitioners did not dispute, ibid., the Seventh Circuit
held that Illinois is able, “in the name of important
and substantial public-safety interests, to restrict the
public carrying of firearms by those most likely to misuse them,” ibid. And, here, the mechanism chosen by
Illinois—prohibiting carriage based on “criminal and
mental health history”—was “expressly recognized in
Heller.” Ibid.

19
The Seventh Circuit also held that the undisputed
evidence demonstrated that the process Illinois selected for evaluating nonresident applicants for concealed carry licenses—the substantial-similarity requirement—is directly related to Illinois’s “weighty
interest in preventing the public carrying of firearms
by individuals with mental illness and felony criminal
records.” Pet. App. 17. Specifically, petitioners did
not dispute, id. at 8, Chief Trame’s description of “the
challenges Illinois faces obtaining information about
out-of-state applicants’ criminal and mental health
histories at the application stage,” or the “even greater
difficulties” confronting Illinois “when it comes to obtaining updated information pertinent to monitoring
the ongoing qualifications of nonresidents,” id. at 11.
Given this information deficit, Illinois allows nonresidents to apply for a license only after it confirms
that their home State’s possession, ownership, and
carriage laws are substantially similar to those in Illinois. 430 ILCS 66/40(b). And the home State must
report individuals who have been denied a concealed
carry license to the National Instant Criminal Background Check System and individuals who have been
authorized (and remain authorized) to possess a concealed carry license to the National Law Enforcement
Telecommunications System. 20 Ill. Admin Code §
1231.10; Resp. App. 16a-17a.
As the Seventh Circuit explained, Pet. App. 17, 19,
these requirements work together to ensure that the
Illinois State Police can establish that nonresident applicants meet Illinois’s eligibility requirements for a
concealed carry license, and, in addition, that the Illinois State Police have access to up-to-date information
about licensees’ criminal and mental health history,

20
so that they can monitor their continued eligibility.
See also Pet. App. 86-87 (discussing Illinois’s “practical need” for initial information, and “reliable updates,” about “the qualifications of nonresident applicants” to determine if they have a disqualifying criminal or mental health history). For example, if a nonresident’s license is revoked by his or her home State
due to a change in qualifications, the Illinois State Police will have access to that information and can revoke the nonresident’s Illinois license as well.
Thus, the substantial-similarity requirement is directly related to Illinois’s public-safety goal of verifying and monitoring the credentials of concealed carry
licensees, to ensure that nonresident felons and the
mentally ill do not carry firearms in public while visiting Illinois. Pet. App. 17. By contrast, “[f]orcing the
State” to abandon the substantial-similarity requirement “despite th[e] information shortfall would thrust
upon Illinois a race to the bottom.” Ibid. The Illinois
State Police would be required to issue concealed
carry licenses based on incomplete information at the
outset and with no ability for ongoing monitoring of
eligibility. Ibid. Once issued a concealed carry license, nonresident felons and the mentally ill could
continue to possess that license even though circumstances had changed to render them statutorily ineligible for public carriage. Ibid. In other words, “[o]nce
eligible would risk meaning forever eligible.” Ibid.
Neither Heller nor the historical tradition it espouses
requires Illinois to take that risk.

21
B. Petitioners’ arguments to the contrary are
incorrect.
Petitioners assert that the decision below departed
from Heller in several respects. None of these arguments is correct. To begin, petitioners contend that
the Seventh Circuit misinterpreted the “Heller ‘disclaimer,’” Pet. 16, which provides that the Second
Amendment was not understood to provide a right “to
keep and carry any weapon whatsoever in any manner
whatsoever and for whatever purpose,” Heller, 554
U.S. at 626. According to petitioners, that disclaimer
goes only “to the ‘what’ and ‘why’ of firearm possession,” but not to the “who.” Pet. 16-17. This is incorrect. As explained, that discussion in Heller also
acknowledges the States’ ability to place “prohibitions
on the possession of firearms by felons and the mentally ill.” 554 U.S. at 626-27 n.26; see also Tyler v.
Hillsdale Cty. Sheriff’s Dep’t, 837 F.3d 678, 685 (6th
Cir. 2016) (en banc) (“In addition to the what and the
where of the Second Amendment, the Heller court also
identified who the government may presumptively
regulate.”). And such prohibitions, of course, focus on
who is prohibited from possessing and carrying firearms.
Petitioners additionally contend that Heller required the Seventh Circuit to apply “strict or nearstrict scrutiny” because the substantial-similarity requirement burdens a core right. Pet. 15-16, 29. This,
too, is incorrect. As an initial matter, petitioners have
never offered any “historical support for a broad, unfettered right to carry a gun in public.” Pet. App. 15.
Nor is one readily found in Heller, where this Court
characterized the core Second Amendment right as
“the right of law-abiding, responsible citizens to use

22
arms in defense of hearth and home.” 554 U.S. at 635.
The Concealed Carry Act does not restrict that right;
in fact, it expressly allows nonresidents to possess a
firearm for self-defense purposes on their own property without a concealed carry license. 430 ILCS
66/10(g)(1).
The only conduct implicated by the substantialsimilarity requirement is unverified and unmonitored
public carriage of firearms, which is not included in
Heller’s definition of the core right. 554 U.S. at 635.
Public carriage, moreover, is an activity with different
parameters and consequences to its exercise than possession in the home. See, e.g., Gould v. Morgan, 907
F.3d 659, 672 (1st Cir. 2018) (outlining the “[s]ocietal
considerations” differentiating self-defense in the
home from public carriage, including that “the availability of firearms inside the home implicates the safety
of those who live or visit there, not the general public”); Kachalsky v. City of Westchester, 701 F.3d 81, 94
(2d Cir. 2012) (explaining that there is “a critical difference” between possession and carriage because the
“state’s ability to regulate firearms and, for that matter, conduct, is qualitatively different in public than in
the home”). Whatever the outer limits of the core
right, it does not encompass public carriage of firearms while visiting another State and under circumstances where a person’s mental health and criminal
history qualifications cannot be verified or monitored.
Thus, petitioners’ argument for strict (or “near strict”

23
scrutiny), Pet. 15, fails, as all three judges below recognized, Pet. App. 14-15; id. at 28 (Manion, J., dissenting) (rejecting the application of strict scrutiny).6
Relatedly, there is also no merit to petitioners’ suggestion that the decision below conflicts with the Seventh Circuit’s own precedent identifying a right to
public carriage under the Second Amendment. Pet. 57. The court acknowledged that it had previously
“held that an individual’s Second Amendment right to
possess a firearm for self-defense extends outside the
home,” but explained that the “decision in Moore did
not end there.” Pet. App. 15. Indeed, Moore “went the
added step of reiterating the assurances from Heller
and McDonald [v. City of Chicago, 561 U.S. 742
(2010),] that the rights conferred by the Second
Amendment are not unlimited and, even more specif-

Petitioners do not argue that there is a circuit split over the
applicable level of scrutiny, and the Seventh Circuit’s application
of intermediate scrutiny is consistent with decisions of other circuits evaluating state laws regulating public carriage. These decisions either applied intermediate scrutiny, see Gould, 907 F.3d
at 672; Kachalsky, 701 F.3d at 93; Drake v. Filko, 724 F.3d 426,
429-30 (3d Cir. 2013); Woollard v. Gallagher, 712 F.3d 865, 878
(4th Cir. 2013), or held that regulation of concealed carry does
not implicate the Second Amendment, and thus did not need to
decide what level of scrutiny would apply, see Peruta v. Cty. of
San Diego, 824 F.3d 919, 924 (9th Cir. 2016), cert. denied sub
nom. Peruta v. California, 137 S. Ct. 1995 (2017); Peterson v.
Martinez, 707 F.3d 1197, 1201 (10th Cir. 2013). But see Wrenn
v. District of Columbia, 864 F.3d 650, 655 (D.C. Cir. 2017) (applying strict scrutiny to District of Columbia law limiting issuance of concealed carry licenses to persons who identified a good
reason for needing a handgun).
6

24
ically, that a state’s interest is strong enough to sustain prohibitions on the possession of firearms by felons and the mentally ill.” Ibid.
In any event, even if the substantial-similarity requirement burdened the core Second Amendment
right, application of intermediate scrutiny would be
consistent with Heller because the requirement does
not impose a flat ban on public carriage. See Heller,
554 U.S. at 636 (distinguishing between lawful
“measures regulating handguns” and an “absolute
prohibition of handguns held and used for self-defense
in the home”). On the contrary, notwithstanding the
undisputed “information deficit,” the Illinois legislature chose to “authorize[ ] concealed carry by out-ofstate residents” rather than deny licensure across the
board. Pet. App. 8.
Illinois, moreover, does not prohibit all public carriage by nonresidents. Even without a concealed
carry license, nonresidents may transport firearms in
their vehicle in Illinois, so long as they are not prohibited from owning or possessing a firearm under federal law and are eligible to carry a firearm in public
under the laws of their State of residence. 430 ILCS
66/40(e). And nonresidents do not need a concealed
carry license when on a firing range; in an area where
hunting is permitted; on their own land or in their
abode, legal dwelling, or fixed place of business; or a
guest in another’s home.
Id. 65/2(b)(5), (7),
66/10(g)(1). Describing the substantial-similarity requirement as a “virtual ban,” as petitioners do, Pet. 6,
thus mischaracterizes the Concealed Carry Act, which
does not impose a wholesale restriction on the exercise
of a Second Amendment right.

25
Next, petitioners contend that Illinois’s substantial-similarity requirement is not “sufficiently tailored
to any public safety goal,” Pet. 19, because respondents’ evidence, although unrefuted, did not show that
Illinois has suffered any “violence problem” as a result
of its inability to “vet or monitor” nonresidents, id. at
18. But the harm associated with not being able to
determine whether an applicant for a concealed carry
license, or a licensee, would pose a danger to himself
or the public is obvious.
In the same vein, petitioners argue that the substantial-similarity requirement is overinclusive and
underinclusive. As to the former, petitioners claim
that the requirement unduly prohibits law-abiding
citizens from carrying firearms in Illinois. See, e.g.,
id. at 19-21, 29. As to the latter, petitioners argue that
the requirement allows unqualified individuals the
opportunity to apply for and obtain a concealed carry
license; for example, someone who moves from a dissimilar State to Illinois or an approved State “is immediately eligible” to “apply for a [concealed carry license].” Pet. 22. Similarly, petitioners assert, the system does not account for Illinois residents who seek
mental health treatment in another State without reporting it to the Illinois State Police. Ibid.
But Illinois is not required to enact a system that is
perfectly tailored to address every scenario that could
arise. Instead, as the Seventh Circuit recognized, its
system is sufficiently tailored to address the fact that
at this point in time, Illinois cannot verify or “adequately monitor [nonresident applicants’] mental
health or potential criminal behavior,” Pet. App. 19, a
reality that petitioners do not challenge, ibid. And,
contrary to petitioners’ suggestion, the Second

26
Amendment does not force Illinois “to accept the public-safety risk of relying on individuals to self-report a
felony conviction, domestic violence arrest, or mental
health crisis,” id. at 20, or “to tailor its law so narrowly
as to sacrifice its important monitoring interest,” ibid.
Indeed, reaching “[a]ny other conclusion . . . would
force Illinois to accept an idiom: what the State does
not know cannot hurt it.” Ibid. But Illinois’s “interest
in maintaining public safety is too substantial to mandate that result.” Ibid. The Seventh Circuit’s decision, which carefully assessed all relevant considerations in light of the evidentiary record before it, was
correct.
***
Petitioners have failed to show that this case warrants certiorari review. Petitioners make no attempt
to identify a split in lower court authority or otherwise
satisfy the criteria for certiorari. Instead, they seek to
relitigate whether the lower court properly applied
settled precedent to the facts of this case. But this position, in addition to being an improper basis for certiorari, is incorrect: the Seventh Circuit’s decision
hewed closely to Heller and its own precedent. Petitioners’ argument, moreover, ignores the fact that
they never disputed the historical account articulated
in Heller or the evidence presented by respondents.
The Seventh Circuit’s decision, which properly applied these uncontested premises to settled precedent,
is not in need of correction. This Court should deny
the petition.

27
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,
KWAME RAOUL
Illinois Attorney General
JANE ELINOR NOTZ*
Solicitor General
SARAH A. HUNGER
Deputy Solicitor General
100 West Randolph Street
Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
* Counsel of Record
JANUARY 2020

APPENDIX

1a
STATE OF ILLINOIS
COUNTY OF
SANGAMON

)
)
)
)
)

Culp v. Madigan,
14-3320
USDC-CDIL

AFFIDAVIT
I, JESSICA TRAME, upon oath, depose and state
that I have personal knowledge of the statements contained in this Affidavit; I understand the contents of
this affidavit to be true and correct; I am competent to
testify; and if called to testify, I would testify as follows:
1. I am employed as the Bureau Chief of the Firearms Services Bureau (FSB or Bureau) of the Illinois
State Police (ISP) and have served in that capacity
since February 2012.
2. In my capacity as Bureau Chief, I am responsible for administering the Firearm Owner’s Identification (FOID) Program, the Firearms Transfer Inquiry
Program, and the Concealed Carry Licensing (CCL)
Program, and I am familiar with the protocols and
procedures of each program.
3. To qualify for a CCL, an Illinois resident must
be eligible for and currently have a valid FOID Card.
A non-resident does not need a valid FOID card to
qualify for a CCL, but the Bureau is responsible for
ensuring that a non-resident CCL applicant would
meet the eligibility criteria to obtain a FOID card if he
or she was an Illinois resident. The goal is to ensure
that residents and non-residents are subject to the
same substantive requirements to qualify for a CCL.

2a
CCL Application Processing
4. In processing CCL applications, the Bureau
performs an extensive background check on each applicant, as required by the FOID Card Act and Firearm Concealed Carry Act.
5. The first phase of the process is a quality check
of the application to ensure the application is complete
and not missing any required information. This step
also includes verification of identity.
6. If there are no errors and the name, address,
and other personal identifying information are validated, the application is moved to the eligibility determination phase. A background check is performed, including queries of national systems such as the National Crime Information Center (NCIC), National Instant Criminal Background Check System (NICS), Interstate Identification Index (III), Immigration and
Customs Enforcement (ICE), the National Law Enforcement Telecommunications System (NLETS), and
Illinois systems, including the Criminal History Record Information (CHRI) System, driver’s license or
identification systems maintained by the Secretary of
State (SOS) and the Computerized Hot Files system,
a central online repository for numerous officer and
public safety information repositories, maintained by
ISP.
7. In addition to the processes described above,
the applicant’s information is made available to Illinois law enforcement agencies, which may submit an
objection to a CCL applicant based upon a reasonable
suspicion that the applicant is a danger to himself,
herself, or others, or is a threat to public safety. If a

3a
law enforcement objection is received, the CCL application is referred to the Concealed Carry Licensing
Review Board, which reviews information submitted
by the objecting law enforcement agency and the applicant. If the Board determines by a preponderance
of the evidence that the applicant poses a danger to
himself , herself, or others, or is a threat to public
safety, then the Board affirms the objection of the law
enforcement agency and notifies the Bureau that the
applicant is ineligible for a license.
8. These various background check processes are
intended to ensure public safety by identifying persons who are unqualified to carry firearms as responsible citizens.
Difficulties Verifying Non-Resident Applicants’
Identities
9. As discussed above, the Bureau must verify a
CCL applicant’s identity while processing the application. For Illinois residents, an applicant’s identity is
verified through use of the Illinois Secretary of State’s
(SOS) driver’s license or state ID systems to cross-reference the applicant’s name, address, photo, and signature.
10. ISP does not have direct access to other states’
driver’s license, state ID or similar databases. To verify a non-resident’s identity, the Bureau must rely on
NLETS to check the validity of an out of state driver’s
license, including personal identifiers of the individual and address. Currently, ISP is not able to receive
identifying photographs or signatures from NLETS,
but has contracted for development of a system that
will allow ISP to access this information from NLETS.
Arizona, California, Colorado, Kansas, New York,

4a
New Hampshire, Oklahoma, South Carolina, and the
District of Columbia do not currently make images
available to NLETS, however.
Difficulties Verifying Non-Resident Criminal
History
11. The Bureau must verify that a CCL applicant’s
criminal history does not render the applicant ineligible for a CCL. For Illinois residents, the Bureau is
able to locate criminal history through Illinois’ Criminal History Record Inquiry, a system maintained by
ISP, from the Computerized Hot Files, and from federal systems.
12. The Firearm Services Bureau does not have direct access to other states’ local or state criminal history databases, so the Bureau relies on federal databases to obtain criminal history information. Many
states provide the federal databases with only a summary of an arrest, which will often be inadequate to
assess the applicant’s eligibility for a CCL. If a criminal record from the federal database is incomplete,
ISP may request a record from the States’ Identification Bureau or from the local jurisdiction, but many
jurisdictions, including Los Angeles County, California; Milwaukee County, Wisconsin; and, Jackson
County, Mississippi, charge for records, and ISP does
not have funds appropriated to pay for the record. As
an example, attached hereto as Affidavit Exhibit A is
a printout from the III dated August 17, 2015, redacted for identifying information, of an individual arrested in Mississippi in 2005 and charged with looting, a felony. The information does not disclose the
disposition of the charge, however. After requesting

5a
criminal history information from Mississippi, ISP received a facsimile transmission, attached hereto as Affidavit Exhibit B, refusing ISP’s request for lack of
fees. Per the Jackson County Circuit Clerk, Pascagoula, MS, a search of the two criminal courts in
Jackson County for the ten-year period (the applicant
was arrested in 2005) requires a fee of $20.00. To obtain information from the two civil courts, an additional $20.00 is required. If ISP needed to search information for a twenty-year period in all four courts, a
fee of $80.00 is required. This also assumes, of course,
that the only relevant information regarding the applicant exists in Jackson County, MS and not other
jurisdictions in the state.
13. ISP uses NLETS to determine if the nonresident applicant’s state-issued CCL is valid and to check
the continued validity of the home-state-issued CCL
every 90 days. NCIC is the mechanism criminal justice agencies use to access over 13 million active records. The NCIC database consists of 21 files, including 14 “persons” files including the National Sex Offender Registry, Foreign Fugitives, Immigration Violations, Mission Persons, Orders of Protection, and
Wanted Persons. ISP accesses the NICS Index and
the III through the NCIC network. The III is the national criminal history record system. When someone
purchases a firearm, NICS verifies the validity of the
Federal Firearms Licensed dealer and checks the
NICS Index or “denied persons” files for persons prohibited from possessing firearms. All CCL applicants
are also checked against the NICS Index.
14. The criminal history information available in
federal databases may also be insufficient to determine a non-resident’s criminal history because states

6a
are not uniform in their reporting of different levels
and types of offenses. ISP is unable to obtain accurate
and updated information via NLETS and NCIC for
those states that do not fully participate in the systems.
15. The information available from the III, a federal criminal history database, also can be very limited. States are not uniform in their reporting of different levels and types of offenses. Only the National
Fingerprint File (NFF) provides detailed extracts directly from states’ local databases, and as of August
2015, only nineteen states participate as in the NFF.
Those states are: Colorado, Florida, Georgia, Hawaii,
Idaho, Iowa, Kansas, Maryland, Minnesota, Missouri,
Montana, North Carolina, New Jersey, Ohio, Oklahoma, Oregon, Tennessee, West Virginia, and Wyoming.
Difficulties Verifying
Health Information

Non-Resident

Mental

16. Pursuant to the FOID Act and Firearm Concealed Carry Act, an applicant is not eligible for an Illinois CCL if the applicant has been involuntarily admitted into a mental health facility, adjudicated mentally disabled or has been a patient in a mental health
facility within the past five years, regardless of the applicant’s state of residence. If an applicant has been a
patient in a mental health facility more than 5 years
ago, a Mental Health Certification must be provided
at the time of the application.
17. Through the Illinois Department of Human
Services (“DHS”) FOID Mental Health System, the
Bureau can readily access information on Illinois
mental health facility admissions and determine

7a
whether an individual has been involuntarily admitted into a mental health facility in Illinois or has been
a patient in a mental health facility in Illinois within
the past five years or more.
18. The DHS FOID Mental Health System contains
no records of out-of-state mental health facility admissions. Further, ISP does not have access to other
states’ mental health facility admissions databases, if
any exist.
19. In my experience as the Bureau Chief of the
FSB, I am aware that the federal databases do not
contain the voluntary mental health admission information necessary to determine whether an applicant
was a patient in a mental health facility. Also, information concerning involuntary mental health admissions or mental disability adjudications is limited.
20. To search for mental health prohibitors for nonresidents, ISP is limited to information available
through the NICS Index, but not all states participate.
NICS contains information from participating states
regarding individuals prohibited from firearm possession for mental health reasons under 18 U.S.C.
§ 922(g)(4), but does not provide any information on
voluntary mental health admissions.
Difficulties Obtaining Updated Non-Resident
Information to Revoke a CCL
21. On a daily basis, all resident CCL holders are
checked against the Illinois CHRI and DHS Mental
Health Systems (by virtue of their FOID Card) for any
new prohibitors (conditions that would disqualify a
person from holding a FOID Card or CCL). All CCL
holders, resident and nonresident, are checked
against the federal databases on a quarterly basis.

8a
22. Illinois Physicians or qualified examiners, Illinois Law Enforcement Officials, and Illinois School
Administrators are required by law to report persons
that may be a clear and present danger to themselves
or others. Even if out-of-state personnel have reporting requirements in their own states, the ISP does not
receive reports from out-of-state physicians, qualified
examiners, law enforcement officials, or school administrators concerning out-of-state persons presenting a
clear and present danger. Similarly, daily checks of
the DHS Mental Health Systems do not reveal information concerning persons treated in other states.
23. Illinois Circuit Clerks are required by statute
to report to ISP persons who have been adjudicated as
mentally disabled or persons who have had a finding
for an involuntary admittance to a mental health facility. I am aware of no other state that is required to,
or does, report such cases to the ISP.
24. DHS must report to the ISP all information collected pertaining to mental health treatment admissions, either voluntary or involuntary, as well as reports of patients deemed to be a clear and present danger. The purpose of this reporting is to determine if
the patient is disqualified under state or federal law
from possessing firearms. Out-of-state mental health
facilities are not required by their states to report admissions or persons presenting a clear and present
danger to DHS or to the ISP, and do not do so unless
ISP makes a request for that information. Many outof-state mental health entities do not provide this information even after an ISP request.
25. Access to the types of information described in
the Illinois databases allows the Bureau to thoroughly

9a
screen for and actively monitor various issues that
may be a basis to deny or revoke a FOID or CCL card.
ISP’s lack of access to this type of data held by other
states would make it virtually impossible to effectively
conduct this same level of screening and monitoring
for nonresident CCL applicants.
Substantially Similar Surveys
26. In 2013, ISP sent surveys to each of the 49 other
states and to the District of Columbia requesting information regarding their regulation of firearms use
and reporting and tracking mechanisms relative to
criminal activity and mental health issues. In 2014,
ISP sent a second survey to those states that did not
respond to the first survey.
27. True and correct copies of the various states’ responses and the response of the District of Columbia
received by the ISP are attached hereto as Affidavit
Exhibit C. Based on the states’ responses to the survey, ISP created a summary, a true and correct copy
of which is attached hereto as Affidavit Exhibit D. As
noted in the summary, Colorado, Maine, Maryland,
Massachusetts, Nevada, Pennsylvania, and Rhode Island did not respond to the ISP’s request for information.
28. Of those states responding, only Hawaii, New
Mexico, South Carolina, and Virginia had laws, similar to Illinois, regulating who may carry firearms in
public, reported persons authorized to carry through
the NLETS, reported denied persons through the
NICS, prohibited persons voluntarily admitted to a
mental health facility in the last five years from pos-

10a
sessing or using firearms, AND prohibited persons involuntarily admitted to mental health facilities from
possessing or using firearms.
29. For example, Indiana, Iowa, Missouri, and Wisconsin responded that they did not prohibit use or possession of firearms based on voluntary admissions to
mental health facilities in the last five years and did
not have a mechanism of tracking that information for
its residents. See Affidavit Exhibit C. Iowa and Missouri also reported that they do not participate in reporting concealed carry licenses via NLETS. See id.
30. The Bureau would not have the time or resources to properly research the necessary information for nonresident applicants if all such applicants could apply for a CCL. The Firearm Concealed
Carry Act requires ISP to either approve or deny an
application within as few as 90 days from the date received, subject to certain exceptions. To process the
applications to this standard, it is likely the out-ofstate applicants would not be held to the same standards set forth in the FOID Card Act or Firearm Concealed Carry Act as Illinois residents are held. Applications would have to be approved without a complete
and thorough background check. Further, applicants
residing in states that lack reporting and eligibility
requirements similar to Illinois and who are issued licenses under the Firearm Concealed Carry Act cannot
be held to the same monitoring standards necessary
to ensure continued eligibility due to the lack of, and
inability to obtain—either at all or in a timely manner—, information concerning those nonresidents.

11a
FURTHER AFFIANT SAYETH NOT.
Subscribed and sworn to before me
this 31st day of August, 2015.
s/Tammy L. Miner
Notary Public
Official Seal

s/Jessica Trame

12a
STATE OF ILLINOIS
COUNTY OF
SANGAMON

)
)
)
)
)

Culp v. Madigan,
14-3320
USDC-CDIL

AFFIDAVIT
I, JESSICA TRAME, upon oath, depose and state
that I have personal knowledge of the statements contained in this Affidavit; I understand the contents of
this affidavit to be true and correct; I am competent to
testify; and if called to testify, I would testify as follows:
1. I am employed as the Bureau Chief of the Firearms Services Bureau (FSB or Bureau) of the Illinois
State Police (ISP) and have served in that capacity
since February 2012.
2. In my capacity as Bureau Chief, I am responsible for administering the Firearm Owner’s Identification (FOID) Program, the Firearms Transfer Inquiry
Program, and the Concealed Carry Licensing (CCL)
Program, and I am familiar with the protocols and
procedures of each program.
3. To qualify for a CCL, an Illinois resident must
be eligible for and currently have a valid FOID Card.
A non-resident does not need a valid FOID card to
qualify for a CCL, but the Bureau is responsible for
ensuring that a non-resident CCL applicant would
meet the eligibility criteria to obtain a FOID card if he
or she was an Illinois resident. The goal is to ensure
that residents and non-residents are subject to the
same substantive requirements to qualify for a CCL.

13a
CCL Application Processing
4. In processing CCL applications, the Bureau
performs a background check on each applicant, as required by the FOID Card Act and Firearm Concealed
Carry Act.
5. The first phase of the process is a quality check
of the application to ensure the application is complete
and not missing any required information. This step
also includes verification of identity.
6. If there are no errors and the name, address,
and other personal identifying information are validated, the application is moved to the eligibility determination phase. A background check is performed, including queries of national systems such as the National Crime Information Center (NCIC), National Instant Criminal Background Check System (NICS), Interstate Identification Index (III), Immigration and
Customs Enforcement (ICE), the National Law Enforcement Telecommunications System (NLETS), and
Illinois systems, including the Criminal History Record Information (CHRI) System, driver’s license or
identification systems maintained by the Secretary of
State (SOS) and the Computerized Hot Files system,
a central online repository for numerous officer and
public safety information repositories, maintained by
ISP.
7. In addition to the processes described above,
the applicant’s information is made available to Illinois law enforcement agencies, which may submit an
objection to a CCL applicant based upon a reasonable
suspicion that the applicant is a danger to himself,
herself, or others, or is a threat to public safety. If a

14a
law enforcement objection is received, the CCL application is referred to the Concealed Carry Licensing
Review Board, which reviews information submitted
by the objecting law enforcement agency and the applicant. If the Board determines by a preponderance
of the evidence that the applicant poses a danger to
himself, herself, or others, or is a threat to public
safety, then the Board affirms the objection of the law
enforcement agency and notifies the Bureau that the
applicant is ineligible for a license.
8. These various background check processes are
intended to ensure public safety by identifying persons who are unqualified to carry firearms.
Difficulties Verifying Non-Resident Applicants’
Identities
9. As discussed above, the Bureau must verify a
CCL applicant’s identity while processing the application. For Illinois residents, an applicant’s identity is
verified through use of the Illinois Secretary of State’s
(SOS) driver’s license or state ID systems to cross-reference the applicant’s name, address, photo, and signature.
10. ISP does not have direct access to other states’
driver’s license, state ID or similar databases. To verify a non-resident’s identity, the Bureau must rely on
NLETS to check the validity of an out of state driver’s
license, including personal identifiers of the individual and address. Currently, ISP is not able to receive
identifying photographs or signatures from NLETS,
but I have been informed by ISP’s LEADS Manager
that ISP has contracted for development of a system
that will allow ISP to access photographs from
NLETS. ISP’s NLETS Coordinator has reported to me

15a
that Arkansas, California, Colorado, Connecticut, District of Columbia, Hawaii, Kansas, North Dakota,
New Hampshire, Nevada, New York, Oklahoma,
Puerto Rico, South Carolina, Virginia, and Vermont
do not currently make images available to NLETS,
however.
Difficulties Verifying Non-Resident Criminal
History
11. The Bureau must verify that a CCL applicant’s
criminal history does not render the applicant ineligible for a CCL. For Illinois residents, the Bureau is
able to locate criminal history through Illinois’ Criminal History Record Inquiry, a system maintained by
ISP, from the Computerized Hot Files, and from federal systems.
12. The Firearms Services Bureau does not have
direct access to other states’ local or state criminal history databases, so the Bureau relies on federal databases to obtain out-of-state criminal history information. Many states provide the federal databases
with only a summary of an arrest, which will often be
inadequate to assess the applicant’s eligibility for a
CCL. If a criminal record from the federal database is
incomplete, ISP may request a record from the States’
Identification Bureau or from the local jurisdiction,
but many jurisdictions, including Los Angeles County,
California; Milwaukee County, Wisconsin; and, Jackson County, Mississippi, charge for records, and ISP
does not have funds appropriated to pay for the record.
As an example, attached hereto as Affidavit Exhibit A
is a printout from the III database, a federal criminal
history database, dated August 17, 2015, redacted for
identifying information, of an individual arrested in

16a
Mississippi in 2005 and charged with looting, a felony.
The information does not disclose the disposition of
the charge. After requesting criminal history information from Mississippi, ISP received a facsimile
transmission, attached hereto as Affidavit Exhibit B,
refusing ISP’s request for lack of fees. Per the Jackson
County Circuit Clerk, Pascagoula, MS, a search of the
two criminal courts in Jackson County for the ten-year
period (the applicant was arrested in 2005) requires a
fee of $20.00. To obtain information from the two civil
courts, an additional $20.00 is required. If ISP needed
to search information for a twenty-year period in all
four courts, a fee of $80.00 is required. This also assumes, of course, that the only relevant information
regarding the applicant exists in Jackson County, MS,
and not other jurisdictions in the state.
13. ISP uses NLETS to determine if the nonresident applicant’s state-issued CCL is valid and to check
the continued validity of the home-state-issued CCL.
NCIC is the mechanism criminal justice agencies use
to access over 13 million active records. The NCIC database consists of 21 files, including 14 “persons” files
including the National Sex Offender Registry, Foreign
Fugitives, Immigration Violations, Mission Persons,
Orders of Protection, and Wanted Persons. ISP accesses the NICS Index and the III through the NCIC
network. The III is the national criminal history record system. When someone purchases a firearm,
NICS verifies the validity of the Federal Firearms Licensed dealer and checks the NICS Index or “denied
persons” files for persons prohibited from possessing
firearms. All CCL applicants are also checked against
the NICS Index.

17a
14. The criminal history information available in
federal databases may also be insufficient to determine a non-resident’s criminal history because states
are not uniform in their reporting of different levels
and types of offenses. ISP is unable to obtain accurate
and updated information via NLETS and NCIC for
those states that do not fully participate in the systems.
15. The information available from the III, a federal criminal history database, also can be very limited. States are not uniform in their reporting of different levels and types of offenses. Only the National
Fingerprint File (NFF) provides detailed extracts directly from states’ local databases, and as of December
2016, only twenty states participate as in the NFF.
According to fbi.gov, those states are: Colorado, Florida, Georgia, Hawaii, Idaho, Iowa, Kansas, Maryland,
Minnesota, Missouri, Montana, North Carolina, New
Jersey, New York, Ohio, Oklahoma, Oregon, Tennessee, West Virginia, and Wyoming.
Difficulties Verifying
Health Information

Non-Resident

Mental

16. Pursuant to the FOID Act and Firearm Concealed Carry Act, an applicant is not eligible for an Illinois CCL if the applicant has been involuntarily admitted into a mental health facility, adjudicated mentally disabled or has been a patient in a mental health
facility within the past five years, regardless of the applicant’s state of residence. If an applicant has been a
patient in a mental health facility more than 5 years
ago, a Mental Health Certification must be provided
at the time of the application.

18a
17. Through the Illinois Department of Human
Services (“DHS”) FOID Mental Health System, the
Bureau can readily access information on Illinois
mental health facility admissions and determine
whether an individual has been involuntarily admitted into a mental health facility in Illinois or has been
a patient in a mental health facility in Illinois within
the past five years or more.
18. The DHS FOID Mental Health System contains
no records of out-of-state mental health facility admissions. Further, ISP does not have access to other
states’ mental health facility admissions databases, if
any exist.
19. In my experience as the Bureau Chief of the
FSB, I am aware that the federal databases do not
contain the voluntary mental health admission information necessary to determine whether an applicant
was a patient in a mental health facility. Also, information concerning involuntary mental health admissions or mental disability adjudications is limited.
20. To search for mental health prohibitors for nonresidents, ISP is limited to information available
through the NICS Index. NICS contains some information regarding individuals prohibited from firearm
possession for mental health reasons under 18 U.S.C.
§ 922(g)(4). Some states report to NICS only limited
information on formal mental health adjudications.
NICS does not provide any information on voluntary
mental health admissions.
Difficulties Obtaining Updated Non-Resident
Information to Revoke a CCL
21. On a daily basis, all resident CCL holders are
checked against the Illinois CHRI and DHS Mental

19a
Health Systems (by virtue of their FOID Card) for any
new prohibitors (conditions that would disqualify a
person from holding a FOID Card or CCL). All CCL
holders, resident and nonresident, are checked
against the federal databases on a quarterly basis.
22. Illinois Physicians or qualified examiners, Illinois Law Enforcement Officials, and Illinois School
Administrators are required by law to report persons
that may be a clear and present danger to themselves
or others. Even if out-of-state personnel have reporting requirements in their own states, the ISP does not
receive reports from out-of-state physicians, qualified
examiners, law enforcement officials, or school administrators concerning out-of-state persons presenting a
clear and present danger. Similarly, daily checks of
the DHS Mental Health Systems do not reveal information concerning persons treated in other states.
23. Illinois Circuit Clerks are required by statute
to report to ISP persons who have been adjudicated as
mentally disabled or persons who have had a finding
for an involuntary admittance to a mental health facility. I am aware of no other state that is required to,
or does, report such cases to the ISP.
24. DHS must report to the ISP information collected pertaining to mental health treatment admissions, either voluntary or involuntary, as well as reports of patients with intellectual or developmental
disabilities, or who have been deemed to be a clear and
present danger. The purpose of this reporting is to
determine if the patient is disqualified under state or
federal law from possessing firearms. Out-of-state
mental health facilities are not required by their
states to report admissions or persons presenting a

20a
clear and present danger to DHS or to the ISP, and do
not do so unless ISP makes a request for that information. Many out-of-state mental health entities do
not provide this information even after an ISP request.
25. Access to the types of information described in
the Illinois databases allows the Bureau to thoroughly
screen for and actively monitor various issues that
may be a basis to deny or revoke a FOID or CCL card.
ISP’s lack of access to this type of data held by other
states would make it virtually impossible to effectively
conduct this same level of screening and monitoring
for nonresident CCL applicants.
Substantially Similar Surveys
26. In 2013, ISP sent surveys to each of the 49 other
states and to the District of Columbia requesting information regarding their regulation of firearms use
and reporting and tracking mechanisms relative to
criminal activity and mental health issues. In 2014,
ISP sent a second survey to those states that did not
respond to the first survey.
27. True and correct copies of the various states’ responses to the 2013 survey and the response of the
District of Columbia received by the ISP are attached
hereto as Affidavit Exhibit C. Based on the states’ responses to the survey, ISP created a summary, a true
and correct copy of which is attached hereto as Affidavit Exhibit D. As noted in the summary, Colorado,
Maine, Maryland, Massachusetts, Nevada, Pennsylvania, and Rhode Island did not respond to the ISP’s
2013 or 2014 requests for information.
28. The Illinois Administrative Code requires that
the Department post on its website a list of all states

21a
determined to be substantially similar. 20 Ill. Admin.
Code 1231.1109(b). Of those states responding to the
2013 survey, only Hawaii, New Mexico, South Carolina, and Virginia were listed on the Department’s
website as having laws, similar to Illinois, regulating
who may carry firearms in public, reported persons
authorized to carry through the NLETS, reported denied persons through the NICS, prohibited persons
voluntarily admitted to a mental health facility in the
last five years from possessing or using firearms, and
prohibited persons involuntarily admitted to mental
health facilities from possessing or using firearms.
29. In 2015, ISP again sent surveys to each of the
49 other states and to the District of Columbia requesting information regarding their regulation of
firearms use and reporting and tracking mechanisms
relative to criminal activity and mental health issues.
My staff telephoned states that did not respond to the
2015 survey to follow up on the status of the states’
responses.
30. True and correct copies of the various states’ responses to the 2015 survey are attached hereto as Affidavit Exhibit E. Colorado and Maryland again did
not respond to the 2015 survey. Although Maine, Massachusetts, Nevada, and Pennsylvania did not submit
responses to the 2013 or 2014 requests for information, they did submit responses to the 2015 survey.
The Department’s website does not currently reflect
the responses to the 2015 survey, but I have been notified that it will be updated in the coming weeks.
31. If the Court required ISP to accept nonresident
applications from states that lack reporting and eligibility requirements similar to Illinois, the background

22a
check process would be jeopardized because ISP is unable to verify those nonresidents’ credentials to the
same standards as Illinois residents are held. The Bureau does not have the time or resources to properly
research their credentials. The Firearm Concealed
Carry Act requires ISP to either approve or deny an
application within as few as 90 days from the date received, subject to certain exceptions. Requests to
other states for information on specific individuals can
take a long time to be completed, compromising timely
processing of applications. Further, if ISP were required to accept all nonresident applications, individuals from states without substantially similar gun
laws could not be held to the same monitoring standards necessary to ensure continued eligibility due to
the lack of, and inability to obtain—either at all or in
a timely manner—, information concerning those nonresidents.
FURTHER AFFIANT SAYETH NOT.
Subscribed and sworn to before me
this 13th day of January, 2017.
s/Sheree D. McKane
Notary Public
Official Seal

s/Jessica L. Trame

23a
STATE OF ILLINOIS
COUNTY OF
SANGAMON

)
)
)
)
)

Culp v. Madigan,
14-3320
USDC-CDIL

AFFIDAVIT
I, JESSICA TRAME, upon oath, depose and state
that I have personal knowledge of the statements contained in this Affidavit; I understand the contents of
this affidavit to be true and correct; I am competent to
testify; and if called to testify, I would testify as follows:
1. I am employed as the Bureau Chief of the Firearms Services Bureau (FSB or Bureau) of the Illinois
State Police (ISP) and have served in that capacity
since February 2012.
2. In my capacity as Bureau Chief, I am responsible for administering the Firearm Owner’s Identification (FOID) Program, the Firearms Transfer Inquiry
Program, and the Concealed Carry Licensing (CCL)
Program, and I am familiar with the protocols and
procedures of each program.
3. In a previous affidavit I signed January 13,
2017, I attested that, as of that date, only Hawaii,
New Mexico, South Carolina, and Virginia were listed
on the Department’s website as having laws, substantially similar to Illinois, regulating who may carry
firearms in public.
See 20 Ill. Admin. Code
1231.110(b). I further attested that the Illinois State

24a
Police had received responses by the various jurisdictions to a 2015 survey but that the Department’s website did not yet reflect those responses.
4. The Illinois State Police has since reviewed responses to the 2015 survey and, based on those responses, has determined that Arkansas, Mississippi,
Texas, and Virginia meet the requirements listed in
20 Ill. Admin. Code 1231.10 to constitute having “substantially similar” laws. Hawaii, New Mexico, and
South Carolina have been determined to no longer
meet those requirements, based on the 2015 survey
responses. Accordingly, the Department’s website has
been updated to reflect Arkansas, Mississippi, Texas,
and Virginia are deemed “substantially similar.” See
20 Ill. Admin. Code 1231.110(b).
FURTHER AFFIANT SAYETH NOT.
Subscribed and sworn to before me
this 17 day of February, 2017.
s/Sheree D. McKane
Notary Public
Official Seal

s/Jessica Trame

